U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Robbull Bryant v. United States of America,
S.Ct. No. 20-7300
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 23,
2021, and placed on the docket on March 2, 2021. The government’s response is due on April 1,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7300
BRYANT, ROBBULL
USA

MICHELLE ANDERSON BARTH
LAW OFFICE OF MICHELLE ANDERSON
BARTH
PO BOX 4240
BURLINGTON, VT 05406
619-894-7817
ANDERSONBARTHLAW@GMAIL.COM

